No. 19-831
IN THE

Supreme Court of the United States
___________

ADAM JARCHOW AND MICHAEL D. DEAN,
v.

Petitioners,

STATE BAR OF WISCONSIN, ET AL.,
___________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
___________
REPLY BRIEF FOR PETITIONERS
___________
DAVID B. RIVKIN, JR.
RICHARD M. ESENBERG Counsel of Record
WISCONSIN INSTITUTE
ANDREW M. GROSSMAN
FOR LAW & LIBERTY
RICHARD B. RAILE
330 East Kilbourn Ave. BAKER & HOSTETLER LLP
Milwaukee, WI 53202
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731
drivkin@bakerlaw.com

i
TABLE OF CONTENTS
REPLY BRIEF FOR PETITIONERS ........................ 1
I.

Respondents’ Defense of Lathrop and
Keller Fails ...................................................... 2

II.

This Case Is an Ideal Vehicle for
Considering the Question Presented ............. 8

CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977) ............................................... 11
Agostini v. Felton,
521 U.S 203 (1997) ................................................ 10
Harris v. Quinn,
573 U.S. 616 (2014) ...................................... 4,5,7,11
Janus v. AFSCME,
138 S. Ct. 2448 (2018) ................................... passim
Keller v. State Bar of Cal.,
496 U.S. 1 (1990) ........................................... passim
Lathrop v. Donohue,
367 U.S. 820 (1961) ....................................... passim
O’Hare Truck Serv., Inc. v. City of Northlake
518 U.S. 712 (1996) ................................................. 9
OTHER AUTHORITIES
Brief in Opposition for Respondents Lisa
Madigan & Michael Hoffman, Janus v.
AFSCME, No. 16-1466 (Aug. 10, 2017) ............... 11
Brief of Respondents Cal. Teachers Ass’n et al. in
Opposition, Friedrichs v. Cal. Teachers Ass’n,
No. 14-915 (Apr. 1, 2015) ..................................... 11

REPLY BRIEF FOR PETITIONERS
Respondents’ arguments only confirm the necessity
of the Court’s review. Lathrop v. Donohue, 367 U.S.
820 (1961), and Keller v. State Bar of California, 496
U.S. 1 (1990), authorized States to compel attorneys
to join integrated bar associations and subsidize their
speech on matters of public concern, such as the law
and operation of government. Janus v. AFSCME specifically rejected the legal standard applied in Keller
as improperly “deferential” and out of step with the
Court’s “free speech cases.” 138 S. Ct. 2448, 2480
(2018). And Lathrop was, if anything, more deferential than Keller. Respondents do not even attempt to
reconcile Lathrop and Keller with Janus’s holding
that compelled subsidization of speech on matters of
public concern is subject to heightened scrutiny, because that would be an impossible task. Instead, they
are left to argue that Janus’s articulation of First
Amendment law is limited to assessments of agency
fees from public employees and that the Court’s freedom-of-association cases have nothing to say about
State-compelled membership in expressive associations. These unprincipled arguments only confirm
that Lathrop and Keller are indefensible anomalies
and require reconsideration by the Court.
Seeking to forestall that necessary reconsideration,
Respondents urge the Court to wait for a case where
there has been discovery, summary judgment proceedings, or even a “full-blown trial.” BIO.31. Yet Respondents recognize that Petitioners’ claims were
controlled in the lower courts by Lathrop and Keller,
which was the basis on which Respondents sought

2
and obtained dismissal and on which that dismissal
was affirmed. This case presents a pure question of
law concerning the First Amendment’s application to
State-compelled membership in and funding of an advocacy organization, and the Court has often decided
similar questions on the basis of pleaded-but-unproven facts, including in Janus, Keller, and Lathrop.
Given that Lathrop and Keller are binding on the
lower courts, there is no possibility of further “percolation” on these issues and no other posture in which
the question presented here could make its way to
this Court.
I.

Respondents’ Defense of Lathrop and
Keller Fails

A. In conflict with the Court’s modern First
Amendment jurisprudence, Lathrop and Keller failed
to subject compelled membership in an integrated bar
and subsidization of its speech to heightened scrutiny.
Respondents’ inability to defend those decisions’ reasoning demonstrates the need for review.
1. Respondents refuse to confront Lathrop’s and
Keller’s fundamental conflict with the First Amendment principles articulated in Janus. Compelled subsidization of speech on matters of public concern, Janus held, “seriously impinges on First Amendment
rights” and is therefore subject to heightened scrutiny. 138 S. Ct. at 2464–65. Janus condemned the inappropriately “deferential standard” of labor-law
precedents like Abood that Lathrop and Keller applied to uphold mandatory bar dues. Id. at 2479–80.
Respondents do not (and cannot) dispute that Keller

3
in particular drew its deferential standard from
Abood, Pet.12–13, that Janus rejected that standard,
138 S. Ct. at 2480, and that Petitioners and other attorneys subject to integrated-bar schemes are compelled to subsidize speech on matters of intense public
concern, Pet.11–12, such that the Janus standard applies. Janus knocked the legs out from under Lathrop’s and Keller’s unconsidered approval of such
schemes, and Respondents’ refusal to engage Janus’s
reasoning only underscores the point.
2. Rather than take Janus seriously, Respondents contend that its reasoning is limited to assessments of agency fees from public employees and has
no “application in the integrated bar context.” BIO.16.
But Janus, as Respondents acknowledge, “overruled
Abood,” id., and Abood is the foundation upon which
Keller’s approval of compelled dues rests. 496 U.S. at
13–14 (applying Abood to hold that bar associations
may “constitutionally fund activities germane to [certain purposes] out of the mandatory dues of all members”). And there is no way to reconcile Janus’s holding that compelled subsidization of speech on matters
of public concern is subject to heightened scrutiny
with the decidedly lax standard applied in Lathrop
and Keller—again, Respondents do not even attempt
the task. But take Janus at its word as to what the
First Amendment demands, and it is clear that the
rule of Lathrop and Keller has become a constitutional
anomaly requiring reconsideration.

4
3. Respondents’ claim (at 17) that dicta in Harris
v. Quinn, 573 U.S. 616 (2014), blunts Janus’s application in this context is badly mistaken. Harris did not,
as Respondents contend (at 12), declare “Keller…fully
consistent with the First Amendment.” Harris held
that Illinois’s claimed interests in promoting “labor
peace” and worker “welfare” were insufficient to justify subjecting personal assistants who were not fullfledged public employees to an agency-fee requirement. 573 U.S. at 649–51. That result, the Court explained, did not itself “call into question” Keller, because Keller was premised on different claimed interests, regulation of the practice of law and improving
the quality of legal services. Id. at 655–56. Janus,
however, took the additional step of overruling Abood
and generally holding compelled subsidization of core
speech to be subject to heightened scrutiny—in plain
conflict with Keller, which had applied Abood’s improperly deferential standard. It is a complete non sequitur to claim, as Respondents do, that the limited
reach of Harris’s tailoring analysis somehow cabins
Janus’s generally applicable legal standard.1
Moreover, Harris’s discussion of Keller takes a
strikingly narrow view of that decision as precluding
compelled subsidization of the bulk of the State Bar’s

Indeed Harris itself belies that claim, recognizing that it would
be constitutionally problematic for a State to compel “individuals
who follow a common calling and benefit from advocacy or lobbying conducted by a group” to “make payments to the group.”
573 U.S. at 646.
1

5
activities. Whereas Keller approved compelled subsidies to fund “regulating the legal profession and improving the quality of legal services,” 496 U.S. at 13,
Harris states that dissenting attorneys may be compelled to pay only “the portion of the dues used for activities connected with proposing ethical codes and
disciplining bar members,” 573 U.S. at 655. In this respect, Harris confirms the necessity of clarifying attorneys’ rights under the Court’s modern free-speech
jurisprudence.
4. As with Janus, Respondents refuse to take seriously the reasoning of the Court’s freedom-of-association decisions as they apply to State-compelled
membership in an expressive association like the
State Bar. Those decisions are not, as Respondents
claim (at 18), limited to a so-called “freedom to exclude”; instead, they recognize that the First Amendment protects “[t]he right to eschew association for expressive purposes,” Janus, 138 S. Ct. at 2463 (discussing authorities), and that impingements of that right
are subject to heightened scrutiny, id. at 2464–65. Respondents, however, do not dispute that Lathrop subjected compelled bar membership to no scrutiny at all
and that Keller, with no reasoning on the point, reaffirmed Lathrop. See Pet.14–15. That dismissive approach is at odds with the Court’s recent, more rigorous jurisprudence.
Rather than defend Lathrop’s and Keller’s (non-existent) reasoning on this point, Respondents contend
(at 19) that forcing attorneys to join the State Bar

6
works no injury at all because the association is compelled by law and so “does not imply identification
with the State Bar’s positions.” But the same could be
said of any instance of State-compelled speech or association. The astounding implication of Respondents’
claim—that government compulsion to associate with
an advocacy organization never violates the First
Amendment because it is compelled—only confirms
the indefensibility of Lathrop’s and Keller’s unreasoned approval of such arrangements and the need for
reconsideration.
5. Finally, Respondents make no attempt to defend the tailoring of Wisconsin’s requirements that
attorneys join the State Bar and subsidize its advocacy. See Pet.17–19. They do not contend that these
severe burdens on First Amendment freedoms are important to achieving the State’s interests in improving
the quality of legal services or regulating the legal
profession, or even that those interests are sufficiently compelling to justify impingement of First
Amendment rights. This further confirms that Keller’s assumption that those interests support compelled membership and funding of an integrated bar
was mistaken and requires reconsideration.
B. Respondents do not take issue with the point
that their claim for adherence to stare decisis here is
far weaker than the one the Court rejected in Janus.
See Pet.21–25. Although denying that Keller and
Lathrop were poorly reasoned, BIO.25, Respondents
do not dispute that those decisions were the product
of the same “historical accident” of conflating State-

7
compelled association with private-sector labor relations that Janus corrected by overruling Abood. See
Pet.21–23. Although contending that the Keller procedure for opting out from subsidizing “ideological”
advocacy is workable, BIO.25–26, Respondents do not
dispute that it is identical to the Hudson procedure
for refund of agency fees that Janus found to be “unworkable” because it was incapable of consistent application and subjected the vindication of First
Amendment rights to an impermissibly “daunting
and expensive” barrier. Pet.23–24; 138 S. Ct. at 2481–
82. Of a piece with their refusal to engage the reasoning of Janus and the Court’s freedom-of-association
cases, Respondents decline to address the erosion of
Lathrop’s and Keller’s jurisprudential underpinning
and do not dispute that, Abood having been overruled,
those decisions are now “outlier[s] among [the
Court’s] First Amendment cases.” 138 S. Ct. at 2482.
Indeed, Respondents identify no other instance in
which government compels individuals engaged in a
common calling to join and fund an advocacy organization, let alone a court decision upholding such compulsion against First Amendment challenge. See Harris, 573 U.S. at 646 (rejecting the very suggestion).
And although Respondents assert “a strong reliance
interest in upholding Keller and Lathrop,” BIO.27,
they do not dispute that the reliance interest asserted
and ultimately rejected in Janus was far weightier
than here. In fact, Respondents concede (at 28) that
States do have the authority and ability to license and
regulate attorneys just as they do other professionals

8
without compelling them to join and subsidize the
speech of an advocacy organization—an arrangement
significantly less restrictive of First Amendment freedoms that already prevails in over a third of the
States. See Pet.25.
Finally, Respondents’ silence on the importance of
the question presented here speaks volumes. See
Pet.25–26. Today, under the authority of Lathrop and
Keller, States compel hundreds of thousands of attorneys to join integrated bars and fund their advocacy,
irrespective of their own views and beliefs. No less
than in Janus, allowing that wholesale deprivation of
First Amendment rights to persist indefinitely “would
be unconscionable.” 138 S. Ct. at 2484.
II. This Case Is an Ideal Vehicle for
Considering the Question Presented
Having sought and obtained dismissal based on the
application of Lathrop and Keller, Respondents now
argue that this Court should wait for a case with a
more developed factual record to reconsider those
precedents. That makes no sense. Petitioners’ argument is that the First Amendment categorically prohibits Respondents from imposing bar dues on dissenting attorneys to fund the State Bar’s advocacy
and from requiring dissenting attorneys to maintain
membership in what is an advocacy organization. Under Lathrop and Keller, however, Respondents are entitled to impose those obligations on Petitioners. That
is what the Respondents argued below in seeking dis-

9
missal, what the district court held required dismissal, Pet.App.6a–8a, and what the court below held required it to affirm that decision, Pet.App.2a.
The record here is more than sufficient for the Court
to review the decision below and reconsider Lathrop
and Keller. Petitioners object generally to being compelled by Wisconsin law to join the State Bar and fund
its advocacy on subjects that Respondents do not dispute are matters of public concern. Pet.App.11a, 40a.2
Not only does the complaint state that general objection, but it also contains detailed allegations of the
State Bar’s advocacy activities, Pet.App.22–39, and
Petitioners’ specific objections to them, Pet.App.40a–
41a. Moreover, Respondents specifically identified (in
an exhibit to their motion to dismiss) which of those
activities are “chargeable” even to dissenting attorneys. Defendants’ Motion to Dismiss, Ex. B, Jarchow
v. State Bar of Wisconsin, No. 19-cv-266, (W.D. Wis.
May 21, 2019), ECF No. 16-2. Among them are advocacy on legislation, id. at 4, 9, advocacy on Second
Amendment rights, id. at 7, advocacy on federal nominations, id., advocacy for “campaign reform,” id. at 9,
and advocacy for government programs and spending,
id. This is the same sort of advocacy that Janus holds
to “occup[y] the highest rung of the hierarchy of First
Amendment values and merit[] special protection.”
138 S. Ct. at 2475 (quotation marks omitted). Contrary to Respondents’ claim (at 31), this case provides
Because Respondents prevailed below, “the complaint’s factual
allegations are taken as true.” O’Hare Truck Serv., Inc. v. City of
Northlake, 518 U.S. 712, 715 (1996).
2

10
a firm factual basis to assess the constitutionality of
Wisconsin law’s requirements that Petitioners join
the State Bar and fund its advocacy.
Respondents nonetheless contend (at 31) that the
Court should defer consideration until presented with
a case that has completed “summary judgment proceedings” or even “a full blown trial.” But that is no
different from arguing that the Court should never reconsider Lathrop or Keller, because any claim challenging those precedents will necessarily be dismissed. Lower courts are bound by the decisions of
this Court “which directly control[],” Agostini v. Felton, 521 U.S. 203, 207 (1997), and no district court
could allow to proceed a claim that is squarely foreclosed by binding Supreme Court precedent—as Respondents recognize Petitioners’ claims here to be.
BIO.11. Although Respondents suggest (at 29) that
further “percolation” on the issues presented here
would be desirable, none is possible in the face of controlling precedent. Instead, the only way to revisit
that precedent is through a case that has been dismissed as a matter of law, as here. Should the Court
grant the petition and craft a rule that aligns attorney’s First Amendment rights with those of public
employees, the parties will litigate on remand the
facts relevant under that rule.
To that end, this Court regularly resolves similar
First Amendment questions on the pleadings. That
includes, most notably, Janus, in which the Court rejected an identical “insufficient record” argument

11
against certiorari. See Brief in Opposition for Respondents Lisa Madigan & Michael Hoffman, Janus
v. AFSCME, No. 16-1466, at 7–10 (Aug. 10, 2017).3 It
also includes Harris, which assessed the constitutionality of an agency-fee law as applied to personal assistants, 573 U.S. at 626, and Abood, 431 U.S. at 213 n.4.
Indeed, Lathrop was decided on the pleadings, 367
U.S. at 823, and Keller drew its facts exclusively from
the complaint, 496 U.S. at 5, 15. No more is required
to reconsider those precedents.
Finally, Respondents’ focus on “the State Bar’s Keller Dues Reduction Process” is entirely misplaced because Petitioners do not challenge it. See BIO.32–34.
Petitioners’ objection is not to funding the State Bar’s
acknowledged “political” activities—which are subject
to that process, Pet.App.18a, 39a–40a—but to compelled subsidization of its wide-ranging advocacy on
other matters of public concern, which Keller wrongly
approved “under a deferential standard that finds no
support in [the Court’s] free speech cases.” Janus, 138
S. Ct. at 2480. Consistent with Keller, Wisconsin law
does not permit Petitioners to escape from subsidizing
that advocacy, no matter its conflict with their own
views and deeply held beliefs, or even to avoid membership in an organization whose advocacy (political
and otherwise) they reject. Pet.App.40a.
That objection was also raised, and rejected, in Friedrichs v.
Cal. Teachers Ass’n, No. 14-915 (Jan. 26, 2015), which presented
essentially the same question as Janus. See Brief of Respondents
Cal. Teachers Ass’n et al. in Opposition, Friedrichs v. Cal. Teachers Ass’n, No. 14-915, at 22–27 (Apr. 1, 2015).

3

12
In sum, Respondents’ vehicle arguments can be understood only as an attempt to forestall the reconsideration of Lathrop and Keller. Delaying review will
deprive Petitioners and the hundreds of thousands of
attorneys who are compelled by State law to join and
subsidize the speech of integrated bars of their most
fundamental First Amendment rights. If Lathrop and
Keller were wrongly decided—a conclusion that Janus
all but dictates—the Court should not delay in overruling them.
CONCLUSION
The Court should grant the petition.

Respectfully submitted,
RICHARD M. ESENBERG
WISCONSIN INSTITUTE
FOR LAW & LIBERTY
330 East Kilbourn Ave.
Milwaukee, WI 53202

DAVID B. RIVKIN, JR.
Counsel of Record
ANDREW M. GROSSMAN
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731
drivkin@bakerlaw.com

Counsel for Petitioner
APRIL 2020

